In the Supreme Court of the United States
____________

KEVIN M. GUSKIEWICZ,
in his official capacity as Chancellor of the University of North Carolina at
Chapel Hill, et al.,

v.

Petitioners,

DTH MEDIA CORPORATION, et al.,
Respondents.
______________
On Petition for a Writ of Certiorari
to the Supreme Court of North Carolina
______________

MOTION FOR LEAVE TO FILE AMICUS BRIEF
______________

Under Supreme Court Rule 37.2(b), Amici Curiae Victim Rights Law Center
and the North Carolina Coalition Against Domestic Violence request leave to file the
following brief in support of Petitioners in this case. In support of this motion, Amici
show the following:
1. Amici are nonprofit organizations that advocate for the rights of victims of
sexual violence. The particular role and interest of each amicus is stated in the attached brief.
2. The question presented is whether a university must release information
about students who are disciplined for sexual misconduct. Although this case affects
the privacy interests of college and university students, no one with an actual privacy
interest in this information is a party to the case. Amici wish to submit this brief
because they represent the type of victims with a personal stake in the question presented.

3. Counsel for all parties received notice of Amici’s intent to file this brief at
least ten days before its due date. Petitioners have consented to the filing of this
brief. Respondents have withheld consent.
Thus, Amici respectfully request leave to file the enclosed amici curiae brief in
support of the Petitioners in this case.
Respectfully submitted,
/s/ Kip D. Nelson
Kip D. Nelson
Counsel of Record
Troy D. Shelton
FOX ROTHSCHILD LLP
434 Fayetteville Street
Suite 2800
Raleigh, NC 27601
(919) 755-8700

knelson@foxrothschild.com

Counsel for Amici Curiae
November 18, 2020

